<html>
<title> - NOMINATION OF DAVID JAMES GRIBBIN IV TO BE GENERAL COUNSEL OF THE U.S. DEPARTMENT OF TRANSPORTATION</title>
<body><pre>[Senate Hearing 110-66]
[From the U.S. Government Printing Office]


                                                         S. Hrg. 110-66
 
NOMINATION OF DAVID JAMES GRIBBIN IV TO BE GENERAL COUNSEL OF THE U.S. 
                      DEPARTMENT OF TRANSPORTATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 29, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                      U.S. GOVERNMENT PRINTING OFFICE
35-499 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
              Margaret Spring, Democratic General Counsel
   Christine D. Kurth, Republican Staff Director and General Counsel
Kenneth R. Nahigian, Republican Deputy Staff Director and Chief Counsel









                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 29, 2007...................................     1
Statement of Senator Inouye......................................     1
Statement of Senator Lautenberg..................................     2

                               Witnesses

Gribbin IV, David James, Nominee to be General Counsel of the 
  U.S. Department of Transportation..............................     1
    Prepared statement...........................................     4
    Biographical information.....................................     4

                                Appendix

Response to written questions submitted to David James Gribbin IV 
  by:
    Hon. Daniel K. Inouye........................................    19
    Hon. Frank R. Lautenberg.....................................    22
    Hon. Mark Pryor..............................................    22


NOMINATION OF DAVID JAMES GRIBBIN IV TO BE GENERAL COUNSEL OF THE U.S. 
                      DEPARTMENT OF TRANSPORTATION

                              ----------                              


                        THURSDAY, MARCH 29, 2007

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 11:05 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Daniel K. 
Inouye, Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. Today the Committee will consider the 
nomination of Mr. David J. Gribbin to the position of General 
Counsel of the Department of Transportation.
    If appointed, Mr. Gribbin will serve as the principal legal 
officer and advisor to the Secretary of Transportation, the 
Honorable Mary Peters.
    Before I proceed, I'd like you to introduce your wife and 
your seven children.

  STATEMENT OF DAVID JAMES GRIBBIN IV, NOMINEE TO BE GENERAL 
               COUNSEL OF THE U.S. DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Gribbin. Thank you, Mr. Chairman.
    Behind me is my wife, Molly, and my children--I'll give 
them in order of age--Quint, Emily, Abigail, Matthew, Benjamin, 
Daniel and Nathaniel. Nathaniel is the one who keeps kicking 
his shoes off, he's the little one.
    The Chairman. You remembered their names.
    Mr. Gribbin. Yes.
    [Laughter.]
    Senator Lautenberg. I thought I saw him looking at that 
piece of paper, Mr. Chair.
    [Laughter.]
    The Chairman. The General Counsel of the Department will 
play a key role of guiding the agency through the many 
challenges ahead. Our Nation's transportation system is slowly 
collapsing under the tremendous stress of increased congestion 
caused by growing passenger and freight demand, and years of 
underinvestment.
    All modes of transportation are plagued by stubborn safety 
problems. Our highways alone lose 43,000 human lives per year.
    Tackling these problems will force us to face complex 
fiscal, environmental safety and security issues requiring 
extraordinary leadership. America's economic vitality, global 
competitiveness, and most importantly, our quality of life, 
depend on our creating a safe and efficient transportation 
system.
    Today we'll hear about Mr. Gribbin's qualifications to 
serve in this important position, and his general outlook with 
regard to transportation policy, as well as his views on the 
privatization of public transportation infrastructure.
    I have many technical questions, Mr. Gribbin. In order to 
expedite the proceedings, I'd like to submit them to you for 
your response.
    Mr. Gribbin. Absolutely, sir.
    The Chairman. May I now recognize Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thank you very much, Mr. Chairman. And 
I don't want Mr. Gribbin or his family to think that because 
the hall is not filled, that it's not a matter of great 
interest. It really is very important, this assignment.
    And, I look at this from several standpoints, and commend 
you for wanting to take on this task. As you can imagine--and 
as you'll find out if everything goes as you'd like it to--that 
it is a tough job, but, a critically important one. And when 
you think of our transportation network, I don't think there 
has been enough made of the calculation concerning our national 
security. Our transportation network, Mr. Chairman, is a 
critical element in our country's security: we may call on it 
for evacuation of people in an emergency, or to move goods and 
materials that are critical to preventing any attacks. Heaven 
forbid if one does occur, our transportation system is vital, 
in terms of being able to respond positively.
    Now, the Senate must perform its due diligence in assessing 
and confirming nominees that are put forth by the Bush 
Administration. And, once again, as I see your family, 
obviously there's a lot of good characteristics in that group. 
I have never seen such a well-behaved group of youngsters in my 
life, and I'm an expert, because I've got 10 grandchildren and 
4 kids of my own. So I know it's not easy, especially in 
something as exciting as this must be to your littlest one.
    [Laughter.]
    Senator Lautenberg. Our country deserves nominees that are 
qualified, who will carry out their duties provided by law, and 
not simply blindly follow orders from the White House. And I 
think, Mr. Gribbin, it's important--no matter what the job is--
to also include your conscience to make sure that the target is 
a well-functioning transportation system. As Counsel, you have 
an enormous amount of responsibility in that regard.
    But, we have reasons to be skeptical. Recently, President 
Bush had appointed a nominee to the Board of Amtrak who had 
never ridden the train before. I asked him a question at his 
Committee hearing about that, and he said he had just not done 
it. And that, to me, raised a serious question of judgment--or 
curiosity--about why the Bush Administration would propose such 
a person for the job on the Board of Directors.
    Now, we've not had a chance to meet, Mr. Gribbin, but I 
look forward to doing so, so we can discuss things together. 
But, I want to say to you at the outset--I'm concerned about 
some of the things that you've advocated in the past, 
especially with respect to privatizing assets owned by the 
government.
    Now, we've fought this battle before on Amtrak, and I 
remind you that Amtrak was a composition of private passenger 
railroad lines that had to be brought together under government 
auspices. Our screeners at the airports were employed by 
private companies--the airlines--and things did not get done 
well. In both cases, we finally had to bring them into 
government.
    Now, I come out of the corporate world, Mr. Gribbin, and I 
ran a large and successful company that I helped start. And, so 
I know--having had experience in both areas, government and 
business--that government employees are equally as committed--
maybe more so--than lots of people in the private sector. 
Because it's not just for profit, it's for some element of 
soul, some element of responsibility, love of country.
    So, I would say that my view is that appointees, 
significant office holders, have to express themselves in a way 
that gets past pre-conceived ideas and looks at the situation 
as it currently is.
    So, I look forward to having some of my questions answered, 
Mr. Chairman, and I thank you for moving this nomination 
forward. Obviously, Mr. Gribbin is a man of some considerable 
talent, but I want to discuss his views on privatization in 
particular. Thanks, Mr. Chairman.
    The Chairman. Thank you very much.
    Congratulations, Mr. Gribbin, and now the show is yours.
    Mr. Gribbin. Thank you, Mr. Chairman.
    With your permission, I'll open with a brief statement, and 
then will be glad to move into questions.
    The Chairman. Your full statement will be made part of the 
record.
    Mr. Gribbin. OK, great, thank you very much.
    Well, thank you, again, for providing this opportunity to 
meet before this hearing. As, I think, my resume and my 
statement indicates, I was the Chief Counsel of the Federal 
Highway Administration, working for Secretary Peters, prior to 
my current role at Macquarie. I spent 2 years at the Department 
as her lawyer, and if confirmed, I greatly look forward to re-
joining her and some of my former colleagues over at the 
Department, as this process moves forward.
    Given the limited number of people here, and the relative 
informality, since I'm the only witness, with your permission 
I'll just submit my statement for the record, and we can 
proceed directly to what you gentlemen are interested in, the 
questions and answers.
    [The prepared statement and biographical information of Mr. 
Gribbin follow:]

  Prepared Statement of David James Gribbin IV, Nominee To Be General 
            Counsel of the U.S. Department of Transportation
    Thank you, Chairman Inouye, Vice Chairman Stevens, and Members of 
the Committee. It is an honor for me to appear before you today as 
President Bush's nominee to serve as General Counsel of the Department 
of Transportation. I would like to introduce my wife Molly, who is here 
with me today, and my children--Quint, Emily, Abigail, Matthew, 
Benjamin, Daniel, and Nathaniel--who are all in attendance. I want to 
express my gratitude to my family for their encouragement and support.
    For the past decade, I have worked in the transportation area, 
primarily focused on policy issues surrounding highway infrastructure. 
As Chief Counsel for the Federal Highway Administration (FHWA), I 
became very familiar with the Federal highway program, worked on a wide 
variety of legal issues affecting the agency, and gained a solid 
understanding of how the United States Department of Transportation 
works. In addition, I had the opportunity to work with a number of 
stakeholder groups including the environmental community, contractors, 
and unions. If confirmed, I will enjoy having the opportunity to 
reestablish ties with these leaders in transportation.
    Making travel safer across all modes of transportation remains the 
Department's top priority. As a father, I am very cognizant of the 
importance of road and vehicle safety. My son has been driving for 2 
years, and I take my daughter for her learner's permit this weekend. 
Virginia has a program requiring parents to spend 20 hours in the car 
with their child before granting a driver's license. While the rigors 
of this program have probably taken a few years off my life, it is one 
of many programs that have been created since I was licensed that 
increase safety on our roads. We have made great strides in saving 
lives and preventing injuries, but we can never become complacent about 
protecting all Americans when they travel.
    Secretary Peters has frequently said that transportation is 
critical to the freedom we enjoy as Americans and to our Nation's 
economic vitality. While our current transportation systems have served 
us well, there are great challenges that lie ahead. If confirmed as 
General Counsel of the Department of Transportation, I will assist the 
Secretary in addressing these challenges as her chief legal advisor. I 
had the privilege of working closely with the Secretary while she was 
the FHWA Administrator and I was the FHWA Chief Counsel. If confirmed, 
I look forward to serving under her again and working with her and with 
each of you to address these challenges.
    To that end, if I am confirmed as General Counsel, I will ensure 
that the Department benefits from timely and accurate legal advice as 
it carries out its mission to improve the transportation system for all 
Americans. I also look forward to working cooperatively with the 
Committee and its staff on transportation issues.
    I am eager to use my legal training, my experience, and my 
leadership and management skills to address the transportation 
challenges we now face. I also look forward to working with you, 
Secretary Peters, and my former colleagues to improve transportation 
services in this country.
    Thank you for considering my nomination. I would be pleased to 
answer any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former name or nicknames used):

        David James Gribbin IV
        Nickname: D.J.
    2. Position to which nominated: General Counsel, United States 
Department of Transportation.
    3. Date of Nomination: January 11, 2007.
    4. Address (List current place of residence and office addresses):

        Residence: information not released to the public.

        Office: Macquarie Holdings (USA), 125 West 55th Street, 22nd 
        Floor, New York, NY 10019.

    5. Date and Place of Birth: August 21, 1963, Frankfurt, Germany.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Mary Elizabeth Gribbin (spouse--not employed)
        David James Gribbin V (18)
        Emily Virginia Gribbin (15)
        Abigail Elizabeth Gribbin (13)
        Matthew Vernon Gribbin (11)
        Benjamin Oswald Gribbin (8)
        Daniel Loyd Gribbin (5)
        Nathaniel Gene Gribbin (3)

    7. List all college and graduate degrees. Provide year and school 
attended.

        Georgetown University, B.A., 1985.
        Georgetown University Law Center, J.D., 1992.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Runner, White and Steele.

        Legislative Assistant, Congressman Larry Combest.

        D.C. Committee Staff, Congressman Larry Combest.

        Legislative Director, Congressman Larry Combest (management).

        Legislative Representative, National Federation of Independent 
        Business.

        National Field Director, Christian Coalition (management).

        Director, Koch Industries (management).

        Deputy Director Congressional Relations, Bush-Cheney Transition 
        (management).

        Chief Counsel, Federal Highway Administration (management).

        Division Director, Macquarie holdings (management).

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, state, or local governments, other 
than those listed above, within the last 5 years: None.
    11.List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Board Member, Servants 4 Him (Guatemalan water ministry).
        Board Member, Dominion Academy (Private elementary and middle 
        school).

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Virginia Bar (1992-present), membership not restricted based on 
        any of the categories above.

        National Rifle Association (circa 2003), membership not 
        restricted based on any based on any of the categories above.

        Grace Bible Church (1996-2001), membership restricted on basis 
        of religion, but all are free to attend the services.

        Potomac Hills Community Church (2001-2005), membership 
        restricted on basis of religion, but all are free to attend the 
        services.

        Destiny Fellowship Church (2006-present), membership is 
        restricted on the basis of religion, but all are free to attend 
        the services.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? No.
    14.Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.
    I do not keep copies of personal checks going back past 1999. The 
list below is from personal records and on-line searches.

    Contributions:

        Bush for President, $1,000 (includes $500 contribution from 
        spouse), March 23, 2000.

        RNC Victory 2000, $500, October 26, 2000.

        RNC National State Elections Committee, $457, December 5, 2000.

        Joe Finley for Congress, $500, September 23, 2002.

        President's Club, $2,225, April 6, 2004.

        Bush for President, $500, April 2004.

    Services to a national party or election committee:

        Alternate, Republican National Convention 1996.

        Volunteer, Republican National Convention 2000.

        Volunteer, Republican National Convention 2004.

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.
    American Road and Transportation Builders Association's 
Entrepreneur of the Year for 2005.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    I authored, individually or with others the following articles and 
publication:

        The Current FTD System: Far From the Delivery of Roses, Tax 
        Notes, September 1992.

        Get Involved in Your Government, Christian American, April 
        1994.

        1994: The Year of the Believer, Christian American, May/June 
        1994.

        Grassroots Effort Paid Off, Christian American, November/
        December 1994.

        Coalition Expands Operation for 1995, Christian American, 
        January 1995.

        State Leaders Converge on Capitol, Christian American, February 
        1995.

        Coalition Slates School Board Seminar, Christian American, 
        March 1995.

        Coalition Set to Break Barriers, Christian American, April 
        1995.

        State Leaders Advance Cause, Christian American, May/June 1995.

        Participation Brings Change, Christian American, July/August 
        1995.

        Bridge Building Across Racial Lines, Christian American, 
        September 1995.

        Local Emphasis Ensures Victory, Christian American Magazine, 
        January/February 1996.

        Christian Coalition Goes Global, Christian American Magazine, 
        May/June 1996.

        Baby Steps for Democracy, Christian American Magazine, July/
        August 1996.

        Persistence Pays Off, Christian American Magazine, September/
        October 1996.

        Campaign to Derail Voter Guides Failed, Christian American 
        Magazine, November/December 1996.

        Changed Lives Make the Best Public Policy, Christian American 
        Magazine, May/June 1997.

        Training for the Future, Christian American Magazine, July/
        August 1997.

        Seeking God's Face, Christian American Magazine, November/
        December 1997.

        Report to Congress on Public-Private Partnerships, United 
        States Department of Transportation, December 2004.

    Speeches on topics relevant to the position for which I have been 
nominated include these speeches given when I was working for the 
Federal Highway Administration:

        November 17, 2003, presentation to Mobility 21 on the topic of 
        the highway bill.

        December 2003, presentation to the National Council for Public 
        Private Partnerships on the topic of the highway bill.

        February 11, 2004, presentation to the Jacksonville Florida 
        Chamber of Commerce on the topic of the highway bill.

        February 11, 2004, presentation to the Road Gang on the topic 
        of the highway bill.

        April 23, 2004, presentation to the Design Build Institute of 
        America on the topic of the highway bill.

        May 5, 2004, presentation to the Rome Chamber of Commerce on 
        the topic of the highway bill.

        June 22, 2004, presentation to the Wisconsin Transportation 
        Finance Summit on the topic of the highway bill.

        July 21, 2004, presentation to the Transportation Research 
        Board Lawyers Division on the topic of the highway bill.

        December 9, 2004, presentation to the American Road and 
        Transportation Builders Association on the topic of the highway 
        bill.

        January 27, 2005, presentation to the Road Gang on the topic of 
        the highway bill.

        March 9, 2005, presentation to the American Road and 
        Transportation Builders Association on the topic of the highway 
        bill.

        April 19, 2005, presentation to State-Federal Transportation 
        Conference on the topic of the highway bill.

        May 11, 2005, presentation to CH2MHill's board of directors on 
        the topic of the highway bill.

        May 24, 2005, presentation to the National Council for Public 
        Private Partnerships on the topic of the highway bill.

    I gave these speeches while I was at Macquarie Holdings (USA), 
Inc.:

        April 10, 2006, presentation to Macquarie business leaders on 
        state of the market.

        August 4, 2006, presentation to the Design Professional 
        Coalition on the topic of concessions (a long-term lease of an 
        asset in which the concessionaire takes over responsibility for 
        operations and maintenance in exchange for the right to collect 
        revenue).

        August 8, 2006, presentation to the Institute of Transportation 
        Engineers on the topic of concessions.

        September 19, 2006, presentation to the American Council of 
        Consulting Engineers on the topic of concessions.

        September 28, 2006, presentation in a forum for Street Smart, a 
        new book by Gabriel Roth.

        October 5, 2006, presentation of the Kraft Lecture to the 
        National Association of Bond Lawyers on the topic of 
        concessions.

        October 6, 2006, presentation to ASFE on road concessions.

        October 27, 2006, presentation to Federal Highway 
        Administration on the topic of concessions.

        November 14, 2006, presentation to the Indiana Transportation 
        Conference on the topic of concessions.

        November 15, 2006, presentation to the National Partnership for 
        Highway Quality Conference on the topic of concessions.

        November 16, 2006, presentation to the American Road and 
        Transportation Builders on the topic of concessions.

        December 5, 2006, presentation to the Urban Land Institute on 
        the topic of concessions.

        December 7, 2006, presentation to the Pennsylvania Highway 
        Information Association on the topic of concessions.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        March 22, 1991, testimony before House Ways and Means 
        Subcommittee on Human Resources on the topic of the 
        Unemployment Insurance Reform Act of 1991, representing the 
        National Federation of Independent Business.

        May 13, 1993, testimony before the Senate Veterans Affairs 
        Committee on the topic of the Uniformed Services Employment and 
        Reemployment Rights Act of 1993, representing the National 
        Federation of Independent Business.

        September 30, 2004, before the House Government Reform 
        Subcommittee on Energy Policy, Natural Resources, and 
        Regulatory Affairs on the topic of Maximizing Private 
        Participation in Public Transportation. I was not listed as a 
        participant in the hearing, rather accompanied then-FTA 
        Administrator Jenna Dorn to answer highways-related questions.

        April 22, 2005, testimony before the House Government Reform 
        Committee on the topic of the Boston Central Artery/Tunnel.

        May 22, 2006, testimony before the House Transportation and 
        Infrastructure Committee Subcommittee on Highways, Transit and 
        Pipelines on the topic of highway concessions, representing 
        Macquarie.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    For the past decade, I have worked in the transportation area, 
primarily focused on policy issues surrounding highway procurement. As 
Chief Counsel for the Federal Highway Administration (FHWA), I became 
very familiar with the highway program, worked on a wide variety of 
legal issues affecting the agency, and gained a solid understanding of 
how the United States Department of Transportation works. In addition, 
I had the opportunity to work with a number of stakeholder groups 
including the environmental community, contractors, and unions. During 
my tenure at FHWA, I served under Secretary Peters while she was FHWA 
Administrator. I understand her priorities and appreciate her 
management style because of this experience.
    I would like to serve as the General Counsel for the Department 
because I truly enjoy public service and believe Secretary Peters will 
do an exceptional job serving the public during her tenure. I look 
forward to working with her and my former colleagues to improve 
transportation services in this country.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    I believe the Office of the General Counsel should work closely 
with the Office of the Assistant Secretary for Budget and the Office of 
the Inspector General to ensure management and accounting controls are 
in place and being adhered to.
    Management experience of large organizations includes my time as 
the National Field Director of the Christian Coalition, during which I 
managed a staff (paid and volunteer) of 50 that oversaw a network of 
hundreds of volunteers, and my time as Chief Counsel for Federal 
Highways, during which I managed a staff of 50 attorneys.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    I believe the top three challenges facing the United States 
Department of Transportation are:

        (1) Making travel safer across all modes of transportation. 
        Great strides have been made in saving lives and preventing 
        injuries, but we can never become complacent about protecting 
        all Americans when they travel. The Department must work with 
        state and local partners to help build safety considerations 
        into every transportation decision.

        (2) Improving the performance and reliability of our entire 
        transportation system. America's competitiveness, to a large 
        degree, rests on our ability to move people and products 
        quickly and inexpensively across the continent and world. This 
        capability is eroding, and our Nation faces serious congestion 
        on the highways, at our ports, at our airports, and on the 
        rails that threatens our economic vitality and our leadership 
        in the global marketplace.

        (3) Finding 21st century solutions to 21st century 
        transportation challenges. Today, much of our vital 
        transportation infrastructure is showing its age. At the same 
        time, our growing economy is placing unprecedented demands on 
        all of our systems, while the funding sources we have relied on 
        are less able to keep pace with our needs. Because traditional 
        approaches to transportation planning and policies are becoming 
        less effective, the Department needs to help identify and 
        implement fresh approaches to transportation planning and 
        programs to help keep America moving in the 21st century.

                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    If confirmed and appointed, I will have no financial arrangements 
with business associates, clients, or customers. Currently, I am an 
employee of Macquarie Holdings, Inc. and am paid by them.
    My retirement accounts are:

        National Federation of Independent Business defined benefit 
        plan worth a few hundred dollars a month at retirement.

        Koch Industries defined benefit plan worth about $800 a month 
        at retirement.

        J.P. Morgan managed Koch 401(k) account with the following sub-
        accounts--

           Barclays Global Investment Life Path 2010.
           American Funds Growth Fund of America.
           SSgA S&P 500 Fund-C.
           American Funds EuroPacific Growth R4.

        Fidelity managed Macquarie 401(k) account with the following 
        sub-accounts--

          Blue Chip Growth.
          Pacific Basin.
          Aggressive Growth.
          Retirement Money Market.

    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: Please refer to the 
Deputy General Counsel's opinion letter.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of direct or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    My roles at Macquarie Holdings, Inc., the Federal Highway 
Administration, and Koch Industries included supporting increased 
involvement of the private sector in providing, operating, and 
maintaining transportation infrastructure. I participated in meetings, 
presentations, and testified in favor of policy changes that would 
allow increased private-sector involvement in the transportation 
sector.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items: Please refer to the Deputy General Counsel's opinion letter.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, state, or other law enforcement authority of any Federal, 
state, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain.
    Investigated by the FBI and potentially by other agencies for 
security clearance while at FHWA and for nomination to be General 
Counsel for the United States Department of Transportation.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain.
    Yes. I was informally accused of race discrimination. While working 
as Chief Counsel of FHWA, I hired an administrative assistant out of 
the pool of administrative assistants already in the office. The hiring 
decision was made in conjunction with two FHWA career staff, and the 
successful applicant was supported unanimously. One of the unsuccessful 
candidates complained that she was not chosen because of her race. She 
threatened to file a formal complaint but never did, and the matter was 
dropped.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                    resume of david james gribbin iv
Experience
    Division Director, Macquarie Holdings, Inc. (USA), January 2006 to 
present.

        Provide marketing strategy and business development for asset 
        acquisitions in the U.S.

        Lead government relations at Federal, state, and local levels.

    Sabbatical, July 2005 to December 2005.

        Took family to Guatemala to experience life in a developing 
        country.

        Created non-profit, tax-exempt corporation to serve needs of 
        impoverished Guatemalans.

    Chief Counsel, Federal Highway Administration, July 2003 to July 
2005.

        Legal Counsel to Federal Highway Administrator, Deputy 
        Administrator and Executive Director.

        Manage staff of 50 attorneys to provide agency with accurate 
        and timely legal advice on all matters affecting FHWA.

    Director, Public Sector Business Development, Koch Industries, July 
1999 to July 2003.

        Develop and execute strategic plan for expanding Koch 
        businesses in 12 targeted states working with Governors, 
        legislators, and leaders in state highway authorities.

        Manage public-sector capabilities, including media, government, 
        and community relations for Koch Materials using internal 
        resources and consultants.

    Director, Government Affairs, Koch Industries, September 1997 to 
July 1999.

        Managed staff of seven to execute Federal legislative and 
        political efforts of company.

    National Field Director, Christian Coalition, February 1994 to 
September 1997.

        Managed staff of 15 and over 50 volunteers to oversee 
        grassroots, political, fundraising, and media strategies of 48 
        state affiliates of the Coalition and 1,980 local chapters.

        Edited and compiled the Coalition's grassroots training 
        program, which consisted of five different manuals and a number 
        of workshops. In 1996 alone, these materials were used to train 
        over 16,000 activists in 263 schools held across the country.

        Served as Executive Producer for the Coalition's monthly 
        satellite television show, Christian Coalition Live.

        Created organizations for outreach to African-American 
        community (The Samaritan Project) and to Catholic community 
        (The Catholic Alliance).

    Legislative Representative, National Federation of Independent 
Business (NFIB), April 1989 to February 1994.

        Lobbied U.S. House of Representatives and Senate on behalf of 
        the Nation's largest organization representing small 
        businesses.

        Testified before committees of both Houses of Congress.

        Developed proposal for NFIB's Legal Foundation.

    Legislative Director, U.S. Rep. Larry Combest (R-TX), July 1988 to 
April 1989.

        Managed the legislative program in the office to keep both the 
        Congressman and his constituents informed of legislation 
        pending before the House of Representatives.

    Professional Staff, House Committee on the District of Columbia, 
June 1988 to July 1989.

        Drafted amendments to legislation pending before the Committee, 
        attended hearings with and on behalf of Congressman Combest, 
        and worked to defeat legislation providing for D.C. statehood.

    Legislative Assistant, U.S. Rep. Larry Combest (R-TX), May 1986 to 
July 1988.

        Tracked legislation pending before the U.S. House of 
        Representatives in order to keep both the Congressman and his 
        constituents informed. Focused on legislation affecting foreign 
        affairs, trade, education, labor, and transportation issues.

Education
    Georgetown University Law Center, Washington, D.C., 1992.

        Graduated with a Juris Doctor, cum laude.

    Georgetown University Washington, D.C., 1985.

        Graduated with a Bachelor of Arts in Philosophy.

    Mandarin Training Center, Taipei, Taiwan, 1983.

Other Activities
    Help America Vote Act Volunteer, Cuyahoga County, Ohio, 2004.

    Board Member, Dominion Academy, 2002 to 2004.

        A private school in Leesburg, Virginia.

    Deputy Director of Congressional Relations, Bush-Cheney Transition, 
December 2000 to February 2001.

        Assisted Director of Congressional Relations in managing 
        contacts with Members of Congress and coordinating strategy for 
        getting the President's Cabinet nominated.

    Official Proceedings, Republican National Conventions, 2000 and 
2004.

        Assisted speech coaches train Convention speakers.

    Lecturer, American University, 1996 and 1997.

        Lectured graduate and undergraduate students on grassroots 
        organization and lobbying.

    Lecturer, Kennedy School of Government, 1996.

        Lectured graduate students on grassroots organization and 
        political mobilization.

    Trainer, International Republican Institute, 1996.

        Worked with over 100 local candidates in KwaZulu Natal, South 
        Africa to prepare them for the first democratically held 
        elections in the history of that province.

    Virginia Alternate Delegate to Republican National Convention in 
San Diego, 1996.

    Senator Lautenberg. Thanks, Mr. Gribbin.
    Mr. Gribbin. Yes, Senator.
    Senator Lautenberg. OK, so that neither one of us is 
particularly good at this audio technology.
    I would ask, if it's all right with you, Mr. Chairman, 
whether or not we can hear this statement as Mr. Gribbin has 
prepared. It's not long at all, and so is that something you 
have a copy of?
    Mr. Gribbin. Absolutely, sir, absolutely.
    Senator Lautenberg. Yes.
    Mr. Gribbin. I was just trying to be sensitive to your 
time. I know that you have votes.
    Senator Lautenberg. Thank you for the consideration of the 
time. But, I'd like to hear your statement.
    Mr. Gribbin. Again, thank you very much for having me here 
today, it's an honor for me to appear before you as President 
Bush's nominee to serve as General Counsel at the Department of 
Transportation. I've already introduced my family, but I want 
to express my gratitude to them for their support and 
encouragement through this process.
    For the last decade, I've worked in the transportation 
area, primarily focused on policy issues surrounding highway 
infrastructure. As Chief Counsel of the Federal Highway 
Administration, I became very familiar with the Federal Highway 
program, and worked on a wide variety of legal issues affecting 
the agency. I also gained a solid understanding of how the 
United States Department of Transportation works.
    In addition, I had the opportunity to work with a number of 
stakeholder groups, including the environmental community, 
contractors, and unions, and if confirmed, I will enjoy having 
the opportunity to re-establish ties with these leaders in 
transportation.
    Making travel safer across all modes of transportation 
remains the Department's top priority. As a father, I'm very 
cognizant of the importance of road and vehicle safety. My son 
has been driving for 2 years, and I take my daughter for her 
learner's permit this weekend.
    Virginia has a program requiring parents to spend 20 hours 
in the car with their child as they're learning how to drive. 
Now, while the rigors of this program have probably taken a few 
years off of my life, it is one of the many programs that have 
been created since I was licensed that increased safety on our 
roads.
    We have made great strides in saving lives and preventing 
injuries, but we can never become complacent about protecting 
all Americans when they travel.
    Secretary Peters has frequently said that transportation is 
critical to the freedom we enjoy as Americans, and to our 
Nation's economic vitality. While our current transportation 
systems have served us well, there are great challenges that 
lie ahead. If confirmed as the General Counsel of the 
Department of Transportation, I will assist the Secretary in 
addressing these challenges as her chief legal advisor.
    As I mentioned, I had the privilege of working closely with 
the Secretary while she was the Federal Highway Administrator, 
and I was the Federal Highway Chief Counsel. If confirmed, I 
look forward to serving under her again, and working with her--
and with this Committee--to address these challenges.
    To that end, if I'm confirmed as General Counsel I will 
ensure that the Department benefits from timely and accurate 
legal advice, as it carries out its mission to improve the 
transportation system for all Americans. And, if confirmed, I 
look forward to working cooperatively with the Committee and 
its staff on transportation policy.
    I'm eager to use my legal training, my experience, and my 
leadership and management skills to address the transportation 
challenges we face. I also look forward to working with you, 
Secretary Peters, and my former colleagues to improve 
transportation services in this country.
    Again, thank you for considering my nomination. I'd be 
pleased at this time to answer any questions you may have.
    Senator Lautenberg. Thanks, Mr. Gribbin.
    When it's not trying to shut down Amtrak altogether, the 
Bush Administration has been advocating privatizing our 
Nation's passenger railroad system. And, this ideology has been 
largely rejected over the years. Now, how are you going to deal 
with the movement within the Administration to privatize or 
outsource Amtrak's functions? What's your view on that?
    Mr. Gribbin. Well, let me start by saying that I have 
ridden Amtrak, in fact I ride it repeatedly. In my current role 
with Macquarie, I have an office in D.C. and in New York, and 
Amtrak is the most reliable way to get from New York to D.C.
    Senator Lautenberg. I agree.
    Mr. Gribbin. Usually I try to fly, but if you've flown in 
and out of LaGuardia, you'd understand that that's not a 
particularly reliable option. So, I definitely appreciate the 
services that Amtrak provides.
    That said, I'm not--to be honest with you--very familiar 
with the Administration's policy toward the privatization of 
Amtrak. It is my understanding, that unlike my predecessor, I 
will not be on the Amtrak Board and will not be in a kind of 
policy position regarding the Amtrak. My role will be primarily 
focused on supporting the Secretary and providing her with 
legal advice regarding the Department's role vis-a-vis Amtrak.
    Senator Lautenberg. But, she'll come to you for guidance, 
you will also, not only be a policymaker, you'll also be a, an 
auditor as--I'm not using the term in the formal sense--but 
you'll also be looking at ways that you might think could 
improve the operations of Amtrak. And, the Administration has 
not been shy at all about suggesting, through funding, that 
Amtrak could be shut down.
    Now, in each case over the last couple years, it's been the 
Congress--the Senate, and the House--restoring the funding for 
Amtrak's operations. Even so, we've had a tough time. In the 
preparation for the budget this year, the amounts allocated 
through the Budget Committee and in the budget resolution are 
substantially higher, maybe by twice, than that which comes 
down from the Bush Administration.
    So, one of the things that concerns me is the idealogy that 
if we can shed ourselves of the ownership of Amtrak, we can 
also shed ourselves of the responsibility of funding it. And, 
that's not the full measure of the value of Amtrak now. You've 
had this experience working in the private sector with a 
company that is one of the largest operators of toll roads. 
And, now, have they acquired those roads from government 
ownership over the years?
    Mr. Gribbin. Yes, Senator, actually to be clear, the 
government continues to own the facility. The private sector 
would come in and lease it to them for a fixed period of time. 
But ownership remains with the state and with the public.
    Senator Lautenberg. OK, so what's the advantage to having 
these things become part of a private enterprise?
    Mr. Gribbin. Advantages can be found on several different 
levels. Talking particularly about toll roads--right now, the 
public has invested heavily in these facilities and actually 
the facilities are worth considerably more than can be realized 
under a traditional tax-exempt borrowing mechanism. The primary 
benefit that concessions bring, is the concessionaire is able 
to tap a market for finance that's different than what the 
public can tap.
    You saw in Indiana, where they studied the tax-exempt value 
of the toll road. Basically the state went out and said, ``What 
would this asset be worth if we were to just bond against 
future toll streams? '' And, the answer turned out to be about 
half of what the concessionaire ended up paying at the end of 
the day. There's no particular magic as part of that, it really 
is a result of the fact that the private sector has access to 
debt that the public sector does not.
    Senator Lautenberg. Unless the borrowing is supported by 
the full faith and credit of the entity, being the state or 
county or the Federal Government.
    Mr. Gribbin. That's absolutely true.
    Senator Lautenberg. Right. And, are those conditions 
particularly noted in the agreement with the private 
contractors that the state--most of these are state-owned 
roads, I assume--do they ask, or must they in order to borrow 
in the marketplace at the best rates, do they ask for the 
support of the state government, in terms of the issuance of 
these bonds?
    Mr. Gribbin. No, they do not. The bonds that are issued and 
the debt that is issued in the private sector carries no 
backing from the government at all. So, if the private sector 
were to overpay, which has actually happened in several 
instances in this country, those investors lose their money 
with no recourse back to the state or back to taxpayers.
    Senator Lautenberg. Why do we see the borrowing process 
easier in the private sector than in the public sector?
    Mr. Gribbin. The public sector has access to, essentially 
what we're talking about, is the tax-exempt bond market.
    Senator Lautenberg. Yes.
    Mr. Gribbin. Which tends to be relatively conservative in 
its lending practices. A borrower needs to get a rating, all of 
that. Where, the private sector can tap into equity and then 
debt beneath that equity. The equity is going to take a little 
bit more of a risk, sees a brighter future, and therefore 
lenders will lend more against a facility than you can get in 
the tax-exempt market.
    Senator Lautenberg. What happens to the--your experience 
has been fairly limited to highway issues, but the future 
transportation needs of our country can not be met by cars and 
airplanes alone. Now, if confirmed, how would you ensure that 
we have a balanced transportation system, with rail travel 
options for both travelers and freight shippers? Or, do you 
believe that a balanced transportation system is a necessary 
composition?
    Mr. Gribbin. Sir, yes, I think a balanced transportation 
system is vital. Right now we have transportation systems 
across a wide variety of modes and still have a significant 
amount of congestion. So, clearly we need everything we have 
currently, and more of it. I think having a balanced approach, 
an inter-modal approach too, is very important.
    Senator Lautenberg. Well, the experience that you described 
about going up to New York is interesting, because I do it on a 
regular basis. I go up to either Newark airport or LaGuardia 
airport because I live in New Jersey, mid-way between the two 
airports.
    And, what I find is that I'll get on a flight, as I did 
last Friday night--a week ago, Mr. Chairman--for a 5 o'clock 
flight. We--the pilot always introduces the plan, and says that 
this is a 36-minute flight. And, the 5 o'clock flight left the 
ground at 7:15 p.m., and got to New York--after circling 
awhile--at 8:15 p.m., and then we found that there were no 
gates ready for us, so that took another 10 minutes. So, that 5 
o'clock flight unloaded its passengers at--about 3 hours and 25 
minutes later.
    That train, as you noted, it's pretty comfortable. And I 
think we need to continue to look at how to expedite things in 
this country. As I'm sure you're aware, the skies are terribly 
crowded now. And there's going to be a whole series of new 
airplanes, they're being introduced, the very light jets. They 
expect 5,000 of them to be in the sky in the next 10 years. And 
so, we now see these late flights--one out of four flights 
across America; even more out of Newark are delayed--but across 
America, the delays are still enormous. And, so, and if we talk 
about an alternative that suggests that maybe Amtrak could help 
relieve the congestion, if we then want to put it in the 
private marketplace where it, again, had its origination, I 
think that leaves us in a difficult position.
    Now, your employer, Macquarie, purchased the Virginia 
Dulles Greenway from a Haliburton subsidiary that had defaulted 
on its debt payments. Now it's clear that the Haliburton 
subsidiary cashed out, now Macquarie is looking to raise tolls 
on Northern Virginia drivers. Now, how does the traveling 
public benefit from big investment firm deals, such as these?
    Mr. Gribbin. Very good question, Senator. I actually take 
the Greenway, I took it on my way here this morning, although 
the accident on the Dulles Toll Road negated any savings I got 
from the Greenway, but that's another story.
    Senator Lautenberg. You were really preparing for this 
hearing.
    [Laughter.]
    Mr. Gribbin. Exactly.
    Senator Lautenberg. Tried them all.
    Mr. Gribbin. Yes, I actually spent 2 hours in traffic with 
seven kids in the car, and so I thought, ``The hearing will be 
the easy part of the day.''
    But, back to the Greenway. In essence, my family moved out 
to Leesburg because of the Greenway. It gives us a relatively 
quick way to get to and from Washington, D.C. And, while the 
tolls are going up and--to be honest with you, I haven't shared 
this with my employer yet--but I actually bypass the Greenway 
when there's no congestion. It's a $3.00 toll. When I head home 
this afternoon, since we'll probably get out before rush hour, 
I won't take the Greenway. On the way in this morning I was in 
a hurry, and I took it.
    That facility would not have been built by the Commonwealth 
of Virginia. It just wouldn't exist. So, the choice really came 
down to, in that case--are taxpayers willing to pay a little 
extra for facility, and have the option of using it, or not 
have a facility at all?
    Senator Lautenberg. Do you see a role for rail in dealing 
with emergencies like 9/11 or natural disasters like 
hurricanes? You know, Mr. Chairman, there were a couple of 
major nuclear generating/energy generating plants that were 
abandoned after the facility was built, and built meaning 
having invested billions of dollars. They were abandoned 
because there was no satisfactory evacuation process or design 
to get people away if there was a problem in the nuclear plant. 
So, do you see a role for dealing with emergencies like 9/11, 
natural disasters like hurricanes, or those accidents? Or 
breakdowns in the system, as a result of insufficient access to 
modes of transportation, like rail?
    Mr. Gribbin. Oh, absolutely. I think that in an emergency 
you need to take advantage of every mode of transportation you 
have. And, if you have access to good rail transportation, that 
actually should be taken advantage of.
    Senator Lautenberg. OK, so do you see any inconsistency 
between your call, call for privatization and the reliability 
of having facilities available for emergencies?
    Mr. Gribbin. Not at all, because when you have concession 
agreements, which are leases, the concessionaire has to abide 
by the concession agreement. Which in the case of Indiana and 
Chicago, are a couple-hundred page documents. These agreements 
will include such things as, ``in case of emergencies the 
concessionaire needs to do the following . . .'' And, again, 
because the state is the owner, or the city is the owner, they 
have the right to prescribe whatever type of emergency scenario 
they want.
    For example, the owner could say to the concessionaire, 
``In case of emergencies all tolls need to be lifted.'' Or, 
``In case of emergencies, traffic must be reversed on lanes so 
that more people can head in a certain direction.'' So, the 
fact that a facility is privately operated, shouldn't inhibit 
at all what's able to be done in an emergency.
    Senator Lautenberg. You look at the Chicago situation with 
the elevated----
    Mr. Gribbin. Yes, sir.
    Senator Lautenberg. Is that portion of the system a 
candidate for privatizing, with all of the infrastructure 
improvement that has to be made there?
    Mr. Gribbin. The Chicago Skyway has already been 
privatized, or has been concessioned. If there are other 
segments of highway in that area, I'm not familiar with them. 
But, yes, and in that case----
    Senator Lautenberg. Well, that's not a good argument for 
privatization. I mean, that system has really broken down, Mr. 
Chairman.
    Well, thank you very much, Mr. Gribbin.
    And, Mr. Chairman, the one thing that I think we have to 
make certain of, is that, talks about privatization should take 
place before there's any precipitous action--or any action--
because it's going to run afoul, many thoughts about 
privatizing something as essential as rail systems, that have 
their peculiarity of making money, or at least having decent 
revenues when the work hours are there, but otherwise having to 
make up for a lot of dead time and idle equipment.
    Mr. Gribbin, thanks very much.
    Mr. Chairman, I'll reserve the right to submit further 
questions in writing.
    Mr. Gribbin. Thank you, Senator.
    The Chairman. I thank you very much. At the request of 
Members of the Committee, I wish to assure them that the 
hearing record will remain open for 2 weeks. This will just 
cover the recess period, so that Members will have time to 
submit any further questions for the record, like Senator 
Lautenberg.
    And I would urge all Members who would like to meet 
personally with Mr. Gribbin to do so at their earliest 
convenience. The Committee also expects the nominee to answer 
these questions submitted for the record, fully and 
expeditiously.
    And, Mr. Gribbin, I thank you very much for your testimony 
this morning and I thank your wife, Molly, and children for 
being in attendance and well-behaved.
    Mr. Gribbin. Thank you, Mr. Chairman.
    The Chairman. The hearing is now adjourned.
    [Whereupon, at 11:35 a.m., the hearing was adjourned.]
                            A P P E N D I X

  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                         David James Gribbin IV
    Question 1. Please describe your work with the private sector on 
transportation infrastructure, particularly with respect to private 
operations of roads and other infrastructure.
    Answer. I have worked for both Koch Industries and Macquarie (my 
current employer) encouraging the increased use of the private sector 
in the provision of transportation infrastructure. At Koch, I worked 
with a business called Koch Performance Roads, Inc. (KPRI). This 
business offered to design, build and maintain an asphalt pavement for 
a number of years. This approach freed states from concerns that a 
contractor might provide them with sub-standard pavement, because all 
the future liability was carried by the entity doing the design and 
construction.
    At Macquarie, I have been involved in helping state and local 
governments understand when they might benefit from operating some of 
their assets as a concession. While not appropriate for all 
circumstances, concessions can be very helpful to meet capital needs of 
a state or local government.

    Question 2. What role should the government have in ensuring that 
all citizens, regardless of income, have access to affordable, reliable 
and efficient transportation options?
    Answer. Transportation is key to enabling people to find productive 
employment, which is the best way to eliminate poverty and the 
suffering caused by poverty. Governments have historically worked to 
ensure that low-income workers have access to affordable 
transportation, and they should continue to do so.

    Question 3. Do you believe government subsidies are a legitimate 
tool to preserve access to transportation facilities for citizens who 
are priced out of using a transportation facility, such as a toll road 
that has been turned over to a private operator?
    Answer. Yes.

    Question 4. What role does the Federal Government have in 
preserving efficient and equitable interstate mobility when a state or 
other public entity turns a public transportation asset over to a 
private company?
    Answer. The Federal Government's role has traditionally been 
focused on a number of areas, including ensuring that taxpayer dollars 
are spent appropriately, establishing safety standards, and providing a 
nationwide perspective on mobility. This role should be maintained even 
on systems containing a privately leased facility.

    Question 5. How does the Federal Government ensure that private 
operators continue to invest in and upgrade the public infrastructure 
that they operate on a long-term basis, especially toward the end of a 
concession, when a private company might be reluctant to expend 
capital?
    Answer. Current concession agreements require concessionaires to 
maintain and upgrade the highways they operate. At the end of the 
concession term, concessionaires have less of an incentive to keep the 
facility in excellent condition. To counter this lack of incentive, 
concession agreements must require concessionaires to hand the facility 
back in a defined condition and to make needed capital expenditures in 
the waning years of the agreement.

    Question 6. Mr. Gribbin, two significant truck safety rules 
promulgated in the past several years by the Federal Motor Carrier 
Safety Administration and approved by the DOT General Counsel were 
ruled ``arbitrary and capricious'' and thrown out by the Federal 
courts. In these cases, the court noted the poor quality of these rules 
developed by the Department and the disregard of Congressional intent 
demonstrated by the DOT in crafting them. What will you do as General 
Counsel to ensure that the quality of the rules promulgated by the 
Department improves and that Congressional intent is fully considered 
when such rules are crafted?
    Answer. If confirmed. I would commit all the time and attention it 
takes to ensure that the regulations promulgated by the Department are 
of the highest quality, and that they reflect the intent of Congress.

    Question 7. As the DOT's head lawyer, you would review and approve 
all of the regulations promulgated by the Department, including the 
safety regulations that are so important to the transportation system 
and the traveling public. While you have clearly had experience in the 
transportation policy arena, can you tell the Committee what 
significant regulatory work you have been involved in during your 
career that qualifies you for this significant position?
    Answer. I have worked on a wide variety of regulatory matters from 
the early 1990s through my time as Chief Counsel for FHWA. During my 
time at the National Federation of Independent Business (NFIB) in the 
early 1990s, I helped re-shape the payroll deposit rules (which are 
found in Internal Revenue Service regulations) for small businesses. 
The changes made and the policy reasons behind them can be found in an 
article I wrote for Tax Notes Magazine. Most of my regulatory 
experience occurred during my time at FHWA, where I worked on 
regulations across a wide variety of policy areas.

    Question 8. Mr. Gribbin, your transportation experience has 
primarily been in the highway sector. What experience do you have with 
the other modes of transportation within the Department that will 
prepare you for this position? As you know, ports and maritime vessels, 
airlines, railroads, trucks, pipelines, and automobiles are all equally 
important to this Committee.
    Answer. I agree that transportation experience in government is a 
plus in undertaking a job as significant as that of Department of 
Transportation General Counsel, and my former position as Federal 
Highway Administration Chief Counsel has exposed me to the fundamentals 
faced in each mode, including drafting regulations and legislation, 
managing litigation, enforcing personnel protections, and carrying out 
the letter and spirit of numerous Federal laws, such as the National 
Environmental Protection Act. While more experience in other modes of 
transportation would be advantageous, my employment background in 
transportation is comparable to or broader than that of the last 
several DOT General Counsels at the time of their appointments.

    Question 9. Under current law, there is a pilot program that would 
allow tolling on existing interstates. Do you support requiring a state 
that leases the existing interstate operations and tolling authority to 
a private operator to share those proceeds with the Federal Government 
to repay the Federal investment in that interstate segment?
    Answer. Current law requires states participating in the lease of a 
highway asset that has been partially financed with Federal funds to 
use an amount equivalent to the Federal contribution for title 23 
purposes. This balances the states' need for flexibility with the 
Federal Government's stewardship responsibility and ensures that 
highway fund receipts are used for their intended purpose.

    Question 10. There seem to be significant problems with the public-
private partnerships and highway privatization schemes in the United 
States and Canada that I have looked at to date. For example, State 
Route 91 in California was eventually bought back by the state, at a 
considerable cost to the government. In Canada, the Toronto community 
has consistently complained about increased tolls after its local 
government sold the 407 Expressway. The government sued to stop toll 
increases but lost, and the community is now stuck with private 
ownership for the next 90 years. What protective measures must the 
public sector take to ensure future projects are successful and 
primarily benefit the public, not private companies' shareholders?
    Answer. Concession agreements, due to their long duration, have 
provisions allowing the owner of the facility to terminate the lease 
and take back operational control of the facility. In the case of SR 
91, Orange County purchased the franchise rights and now operates it 
itself. Interestingly, since the county took control, it has doubled 
the toll rates, and the facility is worth far more than its purchase 
price. Similarly, the government has the right to terminate the 
concession on the 407 Expressway as long as it pays the concessionaire 
for the value of the facility. From a policy standpoint, long-term 
concessions pose a potential problem because political needs are likely 
to change over the life of the concession. This problem, however, can 
be addressed by including provisions in the lease agreement to protect 
the public, such as allowing the government to terminate the concession 
at any point by paying the fair market value of the remaining 
concession rights.

    Question 11. The FAA's greatest challenge is the successful 
modernization of the National Airspace System. This complex multi-year 
effort will require substantial resources. The FAA, however, has a 
history of mismanagement--cost overruns and delays--in handling past 
modernization programs. Do you have any recommendations on measures DOT 
should be taking to ensure FAA modernization is accomplished in an 
effective and timely manner?
    Answer. While I served in the Department, the Inspector General's 
office worked with the different modes on a ``mega projects'' oversight 
process. This process was designed to help avoid problems with cost 
overruns and delays. In addition, I understand Congress has funded a 
Joint Planning and Development Office within the Federal Aviation 
Administration to address just these sorts of challenges. Finally, it 
has been my experience that significant cost overruns and delays, i.e., 
those not caused by changes in material costs or minor modifications to 
scope, are caused by a failure to clearly define the nature of the 
problem to be solved; the failure to build consensus around a preferred 
solution; and/or the failure to plan the solution to an appropriate 
level of detail.

    Question 12. You have been a proponent of greater private sector 
involvement in transportation through public-private partnerships. The 
FAA's contract for Flight Service Stations can be viewed as a type of 
public-private partnership, and it has generally been well received--it 
is reported that this approach has both saved FAA money and improved 
services. In FAA's modernization proposal, the Administration has asked 
for specific authority for FAA to use lease arrangements, indicating it 
may pursue additional modernization efforts in this manner. Your time 
in the private sector, including your current position at Macquarie, 
gives you unique experience and knowledge to comment on the pitfalls of 
such arrangements. What caveats would you offer with regard to private 
sector involvement in transportation infrastructure?
    Answer. The private sector is incentivized to increase profits, and 
as a result, it responds remarkably well to incentives that will 
increase or decrease profits. This profit incentive drives innovation 
and creativity, both of which can be harnessed by the public sector. 
However, the public sector needs to carefully identify the goals and 
policies it wants to accomplish in a public-private partnership and 
ensure that the contract it has with the private sector carefully 
aligns incentives to achieve its goals and policies.

    Question 12a. What issues do you believe the FAA should be 
particularly careful about if it attempts to pursue additional 
modernization efforts through lease agreements?
    Answer. Not being familiar with the details of the FAA's 
modernization effort, I am hesitant to offer detailed advice. However, 
public-private partnerships that work best are those that take the 
various risks contained in any business transaction and apportion them 
to the party best equipped to manage the risk. Typically, the risk of 
cost overruns, delays, and quality is carried by the private sector, 
with appropriate rewards/penalties built into the contract. But the 
public sector must always maintain careful oversight of such 
transactions to ensure that the taxpayer is protected.

    Question 13. It is my understanding that the Federal Aviation 
Administration (FAA) is planning to eliminate Central Weather Service 
Units (CWSUs) from each of its 21 Air Route Traffic Control Centers 
(ARTCC) and may contract these services with a private sector entity. 
Since being established, the Weather Units have been considered a key 
safety redundancy for the National Airspace System that ensured on-
site, accurate weather forecasts. I am concerned about the prospect of 
ARTCC controllers not having an on-site meteorologist and face-to-face 
interaction for their service delivery method, particularly during 
periods of bad weather, where forecasts can change frequently. Can you 
tell me the prospects for moving in this direction?
    Answer. I am not familiar with the latest on FAA's plans regarding 
Central Weather Service Units, but if confirmed. I would be pleased to 
explore this question and provide a detailed answer to the Committee.

    Question 13a. Would you support such an initiative despite the 
potential safety impact?
    Answer. The Secretary believes that the safety of the traveling 
public must continue to be the Department's top priority, and I 
strongly agree with her. Decisions regarding how the FAA best delivers 
its service to the traveling public are primarily the responsibility of 
the FAA Administrator. That said, if asked my opinion, I would 
recommend that any changes in FAA practice fully weigh the impact those 
changes would have on safety.

    Question 13b. What will be the impact of not providing ARTCCs with 
weather reports that include local knowledge of both the microclimates 
the airports operate in and their traffic patterns which would likely 
be lost if such services were centralized?
    Answer. The professional staff of the FAA, who are intimately 
familiar with the difference in information contained in the two 
reports and how that may impact their services, would be better able to 
address this question.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                         David James Gribbin IV
    Question 1. Based on its 2006 Agreement with the FHWA, New Jersey 
continues to use multi-year funding as a financing method for its 
infrastructure projects. If confirmed, will you ensure that USDOT 
continues to approve New Jersey's use of multi-year financing in its 
Statewide Transportation Improvement Program (STIP) as they did for the 
FY 2006-2008 STIP and FY 2007-2010 STIP?
    Answer. If confirmed as General Counsel, I would support the 
Administration's policies and the policy direction of Secretary Peters 
on this or any other issue. I have been told that New Jersey has 
reached an agreement with FHWA on the FY 2006-2008 and the FY 2007-2010 
STIPs, which incorporate the use of multi-year financing. I have no 
reason to believe the Department intends to revisit that agreement, and 
I would not advise doing so should I be confirmed.

    Question 2. If confirmed, will you ensure that the Department 
continues in its efforts to develop a clarification document or 
guidance on the issue of multi-year funding to FHWA and FTA field 
offices?
    Answer. Yes.

    Question 3. You suggested during our meeting that you don't feel 
your lack of experience in non-highway modes of transportation will be 
a problem because you can essentially learn ``on the job.'' How do you 
propose to do this?
    Answer. I have more transportation experience than most recent DOT 
General Counsels. In the areas in which I am less experienced, I would 
do what I presume former General Counsels have done--namely, work 
aggressively to learn the subjects at hand, rely on the Department's 
talented professional career staff for advice, and seek the judgments 
of experts in the field, including those in Congress.

    Question 4. If confirmed, will you continue to push the Bush 
Administration's agenda to privatize or outsource Amtrak functions?
    Answer. If confirmed, I would expect to support and promote the 
President's budget request for departmental programs, and also to 
engage with Congress and stakeholders on the balancing of priorities 
and opportunities for shaping a transportation budget as a whole each 
fiscal year that best serves the American public. To be clear, however, 
the Secretary has designated Federal Railroad Administrator Joe 
Boardman to be her designee on the Amtrak Board and therefore, I expect 
my role would be limited to providing support for the Secretary and the 
Administrator with regard to Amtrak-related issues.

    Question 5. You served as an official of the Christian Coalition, 
an organization that has openly opposed the concept of affirmative 
action. If confirmed as USDOT's top legal official, would you have any 
reservations about defending legal challenges to Federal programs such 
as the Disadvantaged Business Enterprise program, which promotes 
Federal contracts for female-owned and minority-owned businesses?
    Answer. If confirmed, I would work to ensure that the United States 
Department of Transportation complies with the letter and spirit of the 
law, and would carry out the traditional role of defending against 
legal challenges to Federal programs, including the Disadvantaged 
Business Enterprise program.

    Question 6. The Christian Coalition also opposes gay rights. If 
confirmed, would you be able to evaluate impartially a claim of sexual 
orientation discrimination by a USDOT employee?
    Answer. The role of the General Counsel is to provide impartial 
legal advice to the Secretary and to ensure that the Department adheres 
to the spirit and the letter of the law. If confirmed, I would work to 
ensure that any claim of discrimination within the Department is 
adjudicated fairly and in full accordance with the law.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                         David James Gribbin IV
Toll Roads
    Question 1. As Division Director of Macquarie Holdings, one of your 
responsibilities was to advocate the adoption of state legislation to 
allow for concession agreements with private companies to lease and 
toll highways. How will your role at USDOT differ from your previous 
role at Macquarie Holdings since one of the agency's new initiatives is 
to promote the same thing?
    Answer. I view the role of General Counsel at the Department of 
Transportation as fundamentally different from my current, private-
sector employment. I served formerly as Federal Highway Administration 
(FHWA) Chief Counsel under the direction of then-Administrator Mary 
Peters. In that role, I provided legal advice to the Administrator and 
worked to advance the agency's policy priorities. If confirmed as 
General Counsel of the Department of Transportation, I anticipate 
performing similar activities--advising Secretary Peters and working to 
implement the policies of the Department.

    Question 2. What is your opinion of allowing foreign owned 
investment firms in purchasing PPP lease agreements for long-term 
tolling and having virtual ownership of Federal roads?
    Answer. If confirmed as Department of Transportation General 
Counsel, I would seek to advance the policy objectives of the Secretary 
in this area as in any other. That said, I view the concept of 
investment in transportation infrastructure by private enterprise as 
one more option that a state or other public body should have available 
to it when confronting the problem of growing congestion and limited 
fiscal resources. States and localities faced with these challenges 
need as many options as possible to deliver new and upgraded 
facilities. While the merits of foreign participation in financing must 
be judged on a case-by-case basis, the United States generally benefits 
when foreign capital is attracted to help finance critically needed 
infrastructure projects.

    Question 3. Almost everything that gets to a consumer in this 
country rolls off of a truck. Clearly, tolls will drive up the cost of 
goods. Have you weighed the impact on the trucking industry and 
consumers as you advocate for an increase in tolling and public-private 
partnerships?
    Answer. The trucking industry is a critically important element of 
the United States economy. As noted in the question. increased costs to 
the trucking industry are passed along to consumers in the form of 
higher prices. and virtually every consumer item spends some time on a 
truck. Pricing and public-private partnerships, however, offer states 
the opportunity to improve the reliability of the highway network, 
which can result in a reduction of costs for the trucking industry if 
the benefit of the time savings exceeds the cost of the highway 
pricing. That said, some states, like Indiana and Texas, have pursued 
tolling that will result in higher costs to truckers in certain parts 
of the state in order to provide infrastructure benefits in other 
areas. In any scenario, the cost to the trucking industry, and to 
consumers, should be considered whenever pricing or public-private 
partnerships are being weighed as options.

    Question 4. In Arkansas, we have many transportation infrastructure 
needs across roads, rail, and rivers to meet current and future 
demands. Included in that list of needs are high-priority corridors I-
69 and I-49. I was wondering if you were aware of these uncompleted 
corridors and if you had put any thought into how we can complete these 
projects in a timely and cost-effective manner?
    Answer. Although I was the Federal Highway Administration Chief 
Counsel for a period of time several years ago, I do not have 
particular knowledge about the I-69 and I-49 corridors. I am told that 
the I-69 Corridor (Arkansas, Michigan, Indiana, Kentucky, Tennessee, 
Mississippi, Louisiana, and Texas) has been invited to participate in 
Phase 2 of the Department's Corridors of the Future competition. The 
Corridors of the Future competition is one element of the Department's 
Congestion Initiative, and is intended to streamline the advancement of 
three to five major growth corridors across the country. My view is 
that innovative approaches, such as the Corridors of the Future 
competition, are helpful to completing needed multi-state, multi-use 
transportation corridors such as I-69 and I-49.

    Question 5. In addition to surface transportation facilities, is 
your current employer or any of its affiliates pursuing operational 
control of U.S. airports, maritime ports or utilities?
    Answer. Yes. Macquarie invests in a wide variety of infrastructure 
assets and has investments in airports, ports, and utilities around the 
world.

    Question 6. Do you believe that the DOT Commission set up under 
SAFETEA-LU (a Commission chaired by the Secretary and driven by DOT 
staff) is currently casting a wide-enough net reviewing all options for 
future infrastructure funding? Or is the Commission too narrowly 
focused on driving their desired results and focusing solely on PPPs as 
the end-all, be-all solution?
    Answer. I have not been closely following the work of the 
Commission. However, having worked extensively with Secretary Peters in 
her former position as Administrator of the Federal Highway 
Administration, I am confident that, as Chairman of the National 
Surface Transportation Policy and Revenue Study Commission, she is 
committed to an analytic process that addresses fully the range of 
options for future infrastructure funding.
Mexican Truck-Pilot Program
    Question 7. In your time working in the private sector or in your 
service as General Counsel for the Federal Highway Administration, did 
you ever become involved in promoting cross-border trucking traffic 
between Mexico and the U.S. or Canada and the U.S.?
    Answer. I was not directly involved in the effort to allow Mexican 
trucks on U.S. highways. During my time at FHWA, the Department was 
engaged in litigation on the environmental impact statement prepared by 
Federal Motor Carrier Safety Administration. I do not recall becoming 
involved in cross-border traffic between Mexico and the United States 
or Canada and the United States.

    Question 8. Do you have an opinion on the Administration's current 
proposal (announced in February) for a pilot project to allow for 
Mexican trucks to operate beyond the current limit of the 25 mile 
commercial zones?
    Answer. I do not have a personal opinion about the limited 
demonstration of long-haul operations across the southern border 
announced by the Department in February.

    Question 9. Were you ever aware of this pilot project before it was 
announced on February 23rd?
    Answer. No, I was not.
Union Contract Negotiations
    Question 10. You mention in your testimony that you look forward to 
re-establishing your ties with union leaders. Given the FAA's recent 
inability to come to agreement with some of their labor unions, what 
role would DOT's General Counsel play in renegotiating agreements 
should Congress pass legislation that would force the differing parties 
back to the negotiating table?
    Answer. My understanding is that, if legislation on this topic or 
any other that affected the Department of Transportation or its 
programs were enacted, the General Counsel would play a central role in 
ensuring that the Department follows the letter and spirit of the new 
enactment.
Conflict of Interest
    Question 11. Your most recent employment was with Macquarie 
Infrastructure Group, principally as an advocate for private financing 
of infrastructure projects. As DOT Chief Counsel, do you plan to recuse 
yourself from advocating for projects, policies and legislative and 
regulatory initiatives that are likely to benefit Macquarie?
    Answer. If confirmed as the General Counsel, I would strictly 
adhere to the applicable ethics rules governing conflicts of interest. 
In order to avoid even the appearance of a lack of impartiality, 
government employees who have worked outside of the Federal Government 
are required for a period of time to recuse themselves from 
participating in ``particular matters'' involving specific parties if 
their former employer is or represents one of the specific parties. See 
5 CFR Sec. 2635.502. While the rules do not prohibit participation in 
broad policy issues that may affect the interests of a large and 
diverse group, they clearly prohibit for a certain period any 
participation in particular matters to which the employee's former 
employer is a specific party. I would of course never participate in a 
decision in which the interests of any private entity are placed above 
the interests of the citizens of the United States. Having the 
opportunity to serve my country is a great honor and significant 
responsibility; I would treat it as such.

                                  <all>

</pre></body></html>
